   INVENTORY MANAGEMENT OF NAVY FLEET HOSPITALS
        BY THE FLEET HOSPITAL SUPPORT OFFICE,
             CHEATHAM ANNEX, VIRGINIA


Report No. D-2000-191                  September 22, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DEPMEDS               Deployable Medical Systems
DFAS                  Defense Finance and Accounting Service
FH                    Fleet Hospital
FHPO                  Fleet Hospital Program Office
FHSO                  Fleet Hospital Support Office
SLEP                  Service Life Extension Program
STARS                 Standard Accounting and Reporting System
TAMMIS                Theater Army Medical Management Information System
USD(Comptroller)      Under Secretary of Defense (Comptroller)
                      Office of the Inspector General, DoD

Report No. D-2000-191                                                September 22, 2000
 Project No. D1999LF-0031
 (Formerly Project No. 9LF-0093.01)


           Inventory Management of Navy Fleet Hospitals by the
                      Fleet Hospital Support Office,
                       Cheatham Annex, Virginia

                                  Executive Summary

Introduction. Deployable medical systems are standardized modular field hospitals
that can be pre-positioned in the event of a contingency, national emergency, or war
operations. The Navy maintains 10 pre-positioned, 500-bed fleet hospitals in its
deployable medical systems inventory. Eight of the hospitals are pre-positioned
throughout the world. The fleet hospitals are containerized and equipped with
biomedical devices such as anesthesia apparatus, monitor-recorder electrocardiographs,
and visual ultrasonic apparatus. Each fleet hospital requires about 450 containers for
storage. The annual budget for maintaining 10 Navy fleet hospitals is about
$23 million. The 10 fleet hospitals contain a reported $236 million of material.

The Naval Fleet Hospital Program Office was a detachment of the Naval Supply
Systems Command until October 1, 1999. On October 1, 1999, the office was
transferred to the Navy Bureau of Medicine and Surgery.

Objectives. The overall audit objective was to determine whether the Navy Fleet
Hospital Program is based on requirements necessary to support DoD operations plans.
For this audit we reviewed inventory management of the Fleet Hospital Support Office
at Cheatham Annex, Virginia. We also reviewed the management control program as it
related to inventory management, the rebuild process, and unliquidated obligations.

Results. The Fleet Hospital Support Office did not properly manage its approximate
$108 million inventory warehoused at Cheatham Annex, Virginia. Improved inventory
management will help ensure excess inventory is identified, only needed purchases are
made, and Government material is protected from potential misappropriation.
Identifying excess material will allow DoD to put about $13.3 million of assets to better
use and improve the service life extension program (finding A).

The Fleet Hospital Support Office fielded two fleet hospitals without key pieces of
equipment. Key pieces of equipment included items such as X-ray apparatus, suture
devices, and ventilators. Improving the hospital rebuild process will enhance Navy
ability to provide medical care for expected casualties in operations plans (finding B).

The Fleet Hospital Support Office did not properly manage $8.8 million of FY 1999
unliquidated obligations (obligation for which there have been no payments). We
reviewed $1.9 million of the reported $8.8 million in unliquidated obligations and
found that $1.8 million were not valid unliquidated obligations. By reconciling
unliquidated obligation balances, the Fleet Hospital Support Office can better portray its
financial position and possibly can free up funds by canceling invalid obligations
(finding C).

During the audit, a change in Commanding Officers at the Fleet Hospital Support
Office took place. The new Commanding Officer took many steps that should improve
management controls over both the inventory and hospital rebuild process.
Specifically, the new Commanding Officer halted all fleet hospital rebuilds, conducted
a wall-to-wall inventory, implemented a reorganization plan, and began a reconciliation
of unliquidated obligations.

For details of the audit results, see the Finding section. For details of the management
control program, see Appendix A.

Summary of Recommendations. We recommend that the Commanding Officer, Fleet
Hospital Support Office, establish management controls that will ensure accountability
of inventory. We also recommend the Fleet Hospital Support Office perform causative
research on discrepancies identified as a result of the wall-to-wall inventory. In
addition, we recommend the Fleet Hospital Support Office establish management
controls to ensure fleet hospitals are not fielded with material shortages, and perform
mini-service life extension programs and ship follow-on containers with material to
satisfy shortages in Fleet Hospitals 20 and 21. Further, we recommend the Fleet
Hospital Support Office establish management controls that require reconciliation of
unliquidated obligations with Defense Finance and Accounting Service payments and
with Theater Army Medical Management Information System cancellation, purchase
order, and receipt information.

Management Comments. The Principal Deputy, Office of the Assistant Secretary of
the Navy (Manpower and Reserve Affairs) concurred with the recommendations. The
Fleet Hospital Support Office has established management controls to ensure inventory
accountability and to identify excess inventory. Additionally, the Fleet Hospital
Support Office has performed causative research on discrepancies identified by its
wall-to-wall inventory. The Fleet Hospital Support Office developed a production
planning and management program that coordinates departmental and contractor
activities to ensure the fleet hospitals are not fielded with shortages and is working to
satisfy shortages in Fleet Hospitals 20 and 21. Finally, the Fleet Hospital Support
Office completed a reconciliation of its unliquidated obligations and has established
management controls to reconcile unliquidated obligations on a monthly basis in the
future. See the Finding section for a discussion of management comments and the
Management Comments section for a complete text of the management comments.

Audit Response. The Navy comments are fully responsive. We commend the Navy
and especially the Commanding Officer, Fleet Hospital Support Office, for the prompt
and aggressive actions to resolve problems identified during the audit.




                                            ii
Table of Contents

Executive Summary                                     i

Introduction
     Background                                       1
     Objectives                                       2

Findings
     A. Fleet Hospital Inventory Management           3
     B. Hospital Rebuild Process                      7
     C. Reconciliation of Unliquidated Obligations   12

Appendixes
     A. Audit Process
          Scope and Methodology                      15
          Management Control Program                 17
     B. Prior Coverage                               19
     C. Report Distribution                          20

Management Comments
     Department of the Navy                          22
Background
    Deployable Medical Systems. Deployable Medical Systems (DEPMEDS) are
    standardized modular field hospitals that can be pre-positioned in the event of a
    contingency, national emergency, or war operations. DEPMEDS increase the
    capabilities of the Military Departments for providing adequate care to deployed
    forces. DEPMEDS use shipping containers for self-contained hospital facilities
    such as pharmacies, radiology laboratories, and surgery clinics.

    Responsibility for Navy Fleet Hospitals. The Fleet Hospital Program Office
    (FHPO), located at Fort Detrick, Maryland, provides overall program
    management of the fleet hospitals (FHs). The Fleet Hospital Support Office
    (FHSO), Cheatham Annex, Virginia, manages the inventory and performs
    repair and maintenance on FHs. Effective October 1, 1999, the FH program
    management and operations transferred from the Naval Supply Systems
    Command to the Navy Bureau of Medicine and Surgery.

    Navy DEPMEDS. Navy DEPMEDS are FHs that are containerized deployable
    medical systems assembled into 500-bed hospitals. Each FH contains an
    estimated $23.6 million of material. The FHs include biomedical devices such
    as anesthesia apparatus, monitor-recorder electrocardiographs, and visual
    ultrasonic apparatus. Each FH requires about 450 storage containers. The FHs
    are designed to treat casualties of dual major theater wars. With an annual
    budget of $23 million, the Navy maintains readiness for 10 pre-positioned FHs
    by rebuilding 2 hospitals a year. The remaining eight FHs are pre-positioned
    throughout the world.

    Each FH is scheduled for regular repair and maintenance at 5-year intervals.
    This schedule is referred to as the service life extension program (SLEP). To
    accomplish the SLEP, the FHSO uses “build-to” and “as-built” reports.
    Build-to reports show the equipment and supplies currently approved for use in
    the FH; as-built reports show actual equipment and supplies in each FH. As
    items on the as-built report become outdated or are no longer required, they are
    deleted from the build-to report. However, these items remain in the FH until it
    is brought to Cheatham Annex for repair and maintenance. For purposes of this
    report, the outdated and no-longer-required items are referred to as “deleted”
    items.

    Fleet Hospital Relocation. As a result of a 1995 Base Realignment and
    Closure decision, the FHSO moved in October 1998 from Alameda, California,
    to Cheatham Annex, Virginia. During the survey phase of a prior DEPMEDS
    audit, we visited Alameda. FHSO personnel informed us that because of the
    closure of Alameda, a physical inventory would be performed. Excess
    inventory would be disposed of rather than transferred to Cheatham Annex.




                                        1
     Rebuild and Warehouse Responsibility. A contractor performs SLEP and
     warehousing functions for the FHs. During the period the FH function was
     located in Alameda, Management Consulting, Incorporated, performed SLEP
     and warehousing responsibilities. The current contractor at the Cheatham
     Annex facility is DynCorp Enterprise Management. Both contractors were
     responsible for general warehouse management.

     Fleet Hospital Information System. The FHSO uses the Theater Army
     Medical Management Information System (TAMMIS) to manage the inventory
     and SLEP at Cheatham Annex. TAMMIS was designed to improve accuracy,
     resolution, and timeliness of information for medical and combat Service
     commanders about the status of medical equipment and supplies, medical units,
     and patients. TAMMIS subsystems—Medical Supply and Medical Assemblage
     Management—support logistics and the SLEP at the FHSO.

     The Medical Supply subsystem processes material requisitions, purchase orders,
     and receipts. The Medical Supply subsystem also aids with inventory
     management by helping track physical inventories and quality control reviews.
     The user can access status and transaction histories, build and update support
     files and perform system maintenance, review exception records, design reports
     for management use, and manage material release orders. With the Medical
     Assemblage Management subsystem, the user can manage and design an
     assembly process for the FH, expedite ordering for material shortages, place
     orders on the correct supply source, record receipts, follow up on aged orders
     for requirements, and design reports.

Objectives
     This is the second in a series of reports on the Navy FH program. The overall
     audit objective was to determine whether the Navy FH program is based on
     requirements necessary to support the DoD operations plans. This report
     discusses the FH inventory management by the FHSO at Cheatham Annex. We
     also reviewed the management control program as it related to inventory
     management, the rebuild process, and unliquidated obligations. See
     Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program. See Appendix B for prior coverage.




                                        2
       A. Fleet Hospital Inventory
          Management
       The FHSO did not properly manage its approximate $108 million
       inventory. Inventory management can be improved by establishing
       management controls to ensure the performance of periodic physical
       inventories, and identification and disposal of excess material. Improved
       inventory management will assist the FHSO to ensure that excess
       inventory is identified and turned in for reuse or disposal, only needed
       purchases are made, and misappropriated material is detected. During
       the audit, a new Commanding Officer reported to the FHSO. The new
       Commanding Officer initiated corrective actions and worked closely with
       the audit staff to resolve the issues. Excess inventory identified as a
       result of the audit will allow DoD to put $13.3 million in assets to better
       use.

Inventory Management. The FHSO did not properly manage its approximate
$108 million inventory that is used to perform the SLEP on FHs. We attempted
to reconcile the inventory that was on hand before the FHSO moved to
Cheatham Annex with the inventory on hand as of September 1999. However,
we could not reconcile the inventory balances because the FHSO changed
information systems when the office moved. Because of this change, we could
not obtain accurate or complete historical information on purchase orders,
issues, and receipts. Based on concerns of the FHSO personnel, we reviewed
53 of the 716 containers of general inventory to determine whether inventory in
the containers was recorded in TAMMIS. Our review showed that 17 of the
53 containers were not recorded in TAMMIS.

In October 1999, a new Commanding Officer was assigned to the FHSO. We
briefed him about our concerns regarding inventory management at FHSO. He
quickly recognized there were significant inventory integrity problems and
aggressively sought to resolve the problems. In December 1999, the
Commanding Officer stopped all SLEP activity to conduct a wall-to-wall
inventory of the warehouse and 716 containers of general inventory. According
to TAMMIS, the value of the on-hand inventory subject to the wall-to-wall
inventory was approximately $108 million. The wall-to-wall inventory was
completed on April 14, 2000. The value of the material counted during the
wall-to-wall inventory was $97 million. The difference between the book value
and the wall-to-wall inventory was $11 million. The FHSO is in the process of
reconciling the line-item discrepancies making up the $11 million difference.
Naval Supply Systems Command Instruction 4440.115G, “Physical Inventory
Program,” April 25, 1994, requires causative research on unresolved physical
inventory adjustments equal to or greater than $2,500. The FHSO needs to
perform causative research on the $11 million difference and report identified
losses on DD 200, “Financial Liability Investigation of Property Loss,” as
required by Instruction 4440.115G.




                                   3
Physical Inventories. The FHSO can improve its inventory management by
establishing management controls to ensure that the contractor performs the
required periodic physical inventories and the FHSO quality assurance
organization performs periodic checks of inventory balances. Physical
inventories were not performed upon termination of the contract at Alameda or
at the start of the follow-on contract at Cheatham Annex. The Federal
Acquisition Regulation part 45.508.1 states:
          (a) General. Immediately upon termination or completion of a
          contract, the contractor shall perform and cause each subcontractor to
          perform a physical inventory, adequate for disposal purposes, of all
          Government property applicable to the contract, unless the
          requirement is waived as provided in paragraph (b) of this section.

           (b) Exception. The requirement for physical inventory at the
           completion of a contract may be waived by the property administrator
           when the property is authorized for use on a follow-on contract,
           provided, that

                    (1) Experience has established the adequacy of property
           controls and an acceptable degree of inventory discrepancies; and

                     (2) The contractor provides a statement indicating that
           record balances have been transferred in lieu of preparing a formal
           inventory list and that the contractor accepts responsibility and
           accountability for those balances under the terms of the follow-on
           contract.

The contracts with both Management Consulting, Incorporated, and DynCorp
Enterprise Management required physical inventory of all Government property.
However, no records were available to verify that Management Consulting,
Incorporated, had in fact performed periodic inventories. Further, DynCorp
Enterprise Management did not conduct periodic inventories as required.

In October 1998, DynCorp Enterprise Management accepted the inventory of
material stored in 1,051 sealed containers transferred from Alameda. DynCorp
Enterprise Management, however, did not attest to the accuracy of inventory
records. To ensure accountability of inventory, the property control plan states
that verification of the inventory would occur when the seal on any container
was broken. The primary objective for verifying inventory was to determine
whether TAMMIS records matched inventory on hand. Of the 1,051 sealed
containers, DynCorp Enterprise Management opened about 335 containers from
October 1998 through October 1999 to use in rebuilding FH 20 and FH 21.
However, the contractor did not verify the accuracy of TAMMIS records
because the previous Commanding Officer allowed the contractor to use the
material without reconciling with TAMMIS. Further, the Quality Assurance
Branch at the FHSO did not perform or review any physical inventories. We
believe that the Quality Assurance Branch at the FHSO needs to be involved in
ensuring that on-hand inventory balances are accurate and the contractor
performs accurate periodic inventories.



                                        4
    Excess Inventory. The FHSO can further improve inventory management by
    establishing management controls that ensure identification and disposal of
    excess inventory. On September 30, 1999, we requested a list of excess
    inventory; however, the FHSO could not provide the information. By querying
    TAMMIS, we found that only 25 of 8,600 line items were coded as excess. We
    then compared the on-hand inventory to FH rebuild requirements, linkages
    (primary versus substitute items), and the deleted item list. Of the 8,600 line
    items, about 3,600 line items, valued at about $46 million, exceeded FH
    requirements. The FHSO personnel maintained a list showing items no longer
    required in the FHs; however, the FHSO did not use the list to identify excess
    inventory in TAMMIS.

    In October 1999, we briefed the new Commanding Officer, FHSO, about the
    potential excess inventory issue. During the wall-to-wall inventory, the FHSO
    identified $40.7 million of excess material. We did not determine the reason for
    the approximate $6 million difference between what we identified as excess and
    material the FHSO identified because of timing differences and inventory
    inaccuracies. Of the $40.7 million of excess material the FHSO identified,
    about $13.3 million was turned in to DoD for reuse by other organizations. The
    remaining $27.4 million was turned in for disposal. We did not attempt to
    determine if there were any warehouse cost reductions associated with the
    inventory reduction. However, in the past, the FHSO did not have enough
    warehouse space to download an entire hospital and was forced to download
    only those containers undergoing a SLEP. The warehouse space that resulted
    from excessing the $40.7 million of material should assist the FHSO with
    downloading all containers before rebuilding an FH, allowing the FHSO to
    better identify material shortages and requirements and possibly avoid unneeded
    purchases.

    Conclusion. The actions the new Commanding Officer, FHSO, is taking, along
    with full implementation of the recommendations, should significantly improve
    management controls over inventory. The improved management controls will
    assist the FHSO to identify and dispose of excess material. Maintaining
    accurate inventory records will prevent the FHSO from making purchases of
    material when sufficient quantities are on hand as well as provide an opportunity
    to detect potential misappropriation or mismanagement of Government material.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commanding Officer, Fleet Hospital Support
    Office:

           1. Establish management controls to ensure:

                 a. Accountability of recorded inventory, by performing
    annual and periodic wall-to-wall inventories.


                                       5
       Management Comments. The Navy concurred with the recommendation. The
FHSO has established management control procedures to ensure accountability of
inventory and performance of timely and accurate periodic inventories. Specific
responsibilities and procedures will be documented in FHSO Instruction 4440.2,
“FHSO Inventory Control,” by September 30, 2000.

          b. Excess inventory is identified in Theater Army Medical
Management Information System and appropriate disposal action taken.

      Management Comments. The Navy concurred with the recommendation. The
FHSO established a continuous excessing program to ensure that materials no longer
required for future SLEPs will be excessed in a timely manner. Responsibilities and
procedures for the program will be documented in FHSO Instruction 4440.2 by
September 30, 2000.
      Audit Response. The Navy comments are fully responsive. We commend the
Commanding Officer, FHSO, for the prompt and aggressive action taken to establish
management controls to ensure accountability of recorded inventory and identification
and disposal of excess inventory.

      2. Perform causative research on discrepancies identified by the
wall-to-wall inventory and prepare DD 200, “Financial Liability Investigation of
Property Loss,” as required.

     Management Comments. The Navy concurred with the recommendation. The
FHSO is conducting causative research on the discrepancies and expects to prepare a
DD 200, “Financial Liability Investigation of Property Loss,” by September 30, 2000.




                                          6
       B. Hospital Rebuild Process
       Two FHs were fielded without key items. The hospital rebuild process
       can be improved by establishing management controls that:

           •   specify responsibilities for identifying and resolving shortages,

           •   require Supply Department personnel to follow up on unfilled
               user requisitions, and

           •   verify TAMMIS shortage reports are accurate and fully used.

       By improving the hospital rebuild process, the Navy will enhance its
       ability to provide medical treatment for expected casualties in operational
       plans. The new Commanding Officer initiated actions that should
       improve the hospital rebuild process.

Key Items. The FHSO fielded two FHs that were short key items. We
reviewed shortage reports for FH 20 and FH 21 that the FHSO rebuilt since
relocating to Cheatham Annex. Each FH requires $23.6 million of material and
the February 2, 2000, TAMMIS Detailed Stock Status Report showed FH 20
and FH 21 were short material totaling about $2.5 million and $2.8 million,
respectively.

We reviewed FHPO memorandum, “Medical Equipment Shortage List for Fleet
Hospital 20,” July 12, 1999, to the FHSO, which identifies the critical items
that were short in FH 20 and the Detailed Stock Status Report, February 2,
2000. From these documents, we determined that five critical items in FH 20
and seven in FH 21 were short. There was no list of critical items short in
FH 21, so we relied on the list of critical items short in FH 20. Consequently,
there may have been more critical items short in FH 21. We judgmentally
selected a few other important items short in FH 20 and FH 21. For purposes
of this report, critical and important items are referred to as key items. The
table shows examples of key items that were short in FH 20 and FH 21, based
on TAMMIS inventory reports as of February 2, 2000. Note, however, that all
shown shortages may not be correct because of TAMMIS inaccuracies discussed
later in this report.




                                   7
                    Examples of Key Items Short in FH 20 and FH 21
                                as of February 2, 2000


                            Critical Per   Quantity                   Shortages
Item                          FHPO         Required           FH 20               FH 21
Anesthesia gas                                    6               0                   6
Chemical protective suit                        100               0                 100
Crash cart                     X                 27               0                   2
Defibrillator support kit                        15              15                  15
Endoscopic light                                 10               2                   0
Flow rate 48 regulator                           22              22                  22
Intravenous infusion pump                        22              18                   0
Intravenous injection                         1,056           1,056               1,039
Mobile X-ray                   X                  3               2                   0
Monitor support kit                              68              68                  68
Surgical light                 X                 13               9                  13
Surgical suction               X                 24               2                   4
Ventilator                     X                  6               6                   0
Ventilator (portable)          X                 24              14                  22
Volume ventilator              X                 24               0                   8
X-ray apparatus                X                  2               0                   2
X-ray repair part kit                             2               2                   2
X-ray 50MA                     X                  3               0                   3

      The SLEP for FH 20 began in December 1998 at Cheatham Annex and was
      completed in May 1999. In July 1999, the FHSO loaded about one-third of
      FH 20 containers onto the U.S. Marine Corps Maritime Prepositioning Force
      (Enhancement) ship that was pre-positioned afloat. The SLEP for FH 21 began
      in May 1999 and was completed in November 1999. In April 2000, the FHSO
      shipped FH 21 overseas for pre-positioning. We found no documentation that
      the FHSO had taken corrective action to fill the shortages prior to shipping the
      two FHs. However, as a result of the audit and recognizing the extent of the
      shortages, the new Commanding Officer, FHSO, planned to perform a
      mini-SLEP and ship follow-on containers with the material that would satisfy
      the shortages identified in FH 20 and FH 21.

      Organizational Responsibilities and Procedures. The FHSO did not have
      standard operating procedures in place that outlined organizational
      responsibilities and procedures for identifying and resolving shortages during
      and after a SLEP. The Operations Department, which is responsible for
      monitoring contractor progress during a SLEP, did not have an accurate and
      complete list of shortages for FH 20 and FH 21. Further, the Supply
      Department, which satisfies contractor demands (user requisitions) for items not
      in general inventory by issuing purchase orders, also could not identify the
      shortages for FH 20 and FH 21. Neither the Operations nor the Supply
      Departments had standard operating procedures describing key organizational
      responsibilities and procedures.


                                           8
During a SLEP, the contractor is also responsible for monitoring FH shortages.
The audit staff worked closely with the FHSO to determine shortages for FH 20
and FH 21. In February 2000, the Planning Department determined the
shortages for FH 20 and FH 21. To be certain that fielded hospitals meet
readiness requirements, the FHSO needs to develop and implement standard
operating procedures that detail organizational responsibilities and procedures
used to monitor FH shortages during and after a SLEP.

Followup on Unfilled User Requisitions. The FHSO did not have management
controls that required Supply Department staff to follow up on unfilled user
requisitions. We attempted to determine why FH 20 and FH 21 were short the
items shown in the table. We researched each item in TAMMIS, but could not
determine the reason for the shortages. At our request, the FHSO also
attempted to determine why five of the seven FH 21 critical items shown in the
table were short. The FHSO found that for three of the five items, FHSO staff
canceled the purchase orders with no explanation as to why. Further, according
to the TAMMIS reports, no additional action was taken by the Supply
Department to fill the requirements. The remaining two items could have been
filled by on-hand inventory, but were not.

Using TAMMIS, we followed up on the status of 19 purchase orders by
comparing them to the actual receipt files maintained by the contractor and the
Supply Department. Our review showed that 7 of the 19 purchase orders (about
37 percent) were canceled. No supporting documentation showed why the
cancellation occurred or if alternative actions were taken to satisfy the
requirements. The FHSO needs to develop standard operating procedures that
require Supply Department personnel to follow up on unfilled user requisitions
using TAMMIS exception reports that show aged and canceled purchase orders.
Had the FHSO used exception reports to follow up on unfilled user requisitions,
we believe it would have helped identify and resolve shortages of key items in
FHs.

TAMMIS Reports. The FHSO did not have management controls to verify
TAMMIS was accurate and that personnel knew which TAMMIS reports to use
to properly manage the SLEP. TAMMIS did not accurately show material
shortages in an FH. According to the TAMMIS user’s manual, the Stock Status
Summary Report shows the quantity required, the quantity filled, and the
resulting shortage or overage for each item in an FH. Similar to the Stock
Status Summary Report, the Detailed Stock Status Report could be used to show
shortages in material.

The FHSO initially provided us with Stock Status Summary Reports to show
shortages in recently fielded FHs. However, because the reports did not link
substitute items with the prime item for which the requirement existed, the
FHSO had to manually query TAMMIS to determine whether an item was
actually short or if a substitute was used to fill the requirement. For example,
the TAMMIS Stock Status Summary Report showed material shortages of
$3.4 million for FH 21. The Detailed Stock Status Report that was generated
by the contractor reported material shortages of $2.8 million. According to
FHSO staff, the $600,000 disparity was attributed to TAMMIS not recognizing

                                   9
linkages between primary and substitute items. The FHSO and the contractor
are in the process of fixing TAMMIS so that future Detailed Stock Status
Reports and Stock Status Summary Reports will recognize links between
primary and substitute items as well as show actual shortages in material.

The FHSO fielded FH 20 and FH 21 with none of the three required mobile
X-ray machines, despite the Medical Assemblage Management subsystem
reporting that all three critical items were on hand in FH 21 and one was on
hand in FH 20. At the same time, the Medical Supply subsystem showed that
three mobile X-ray machines were on hand in the warehouse. However, when
we physically inventoried the mobile X-ray machines, we found that nine were
on hand in the warehouse. We followed up this discrepancy with the contractor
and FHSO personnel and determined that six of the nine X-ray machines were
removed from general inventory and set aside in the warehouse for FH 20 and
FH 21. However, the X-ray machines were not put in FH 20 and FH 21 during
the SLEP. Had the FHSO managers used TAMMIS reports to manage FH
rebuilds, they would have quickly realized that the reports were inaccurate.

Use of TAMMIS Reports. FHSO managers did not ensure that personnel
responsible for managing the SLEP were fully using TAMMIS. Specifically,
the FHSO did not develop procedures specifying which TAMMIS reports each
division, department, branch, and manager should use to accomplish their
mission. Also, the previous Commanding Officer, FHSO, did not emphasize
using TAMMIS and allowed personnel to use other unofficial software programs
and databases. During the audit, we observed some personnel using an old
database instead of the official TAMMIS. We also noticed managers were
either unaware or simply not using information in TAMMIS critical to their
functional responsibilities. TAMMIS was fielded and implemented before
personnel received adequate training. The Commanding Officer, FHSO,
informed us that most personnel have now been trained to use TAMMIS.

Management Actions During the Audit. During the audit, the Commanding
Officer, FHSO, initiated actions that when fully implemented should
significantly improve management controls over the FH rebuild process.
Specifically, the Commanding Officer implemented policy changes and
proposed a reorganization. The Commanding Officer, FHSO, stated that FHs
would not be fielded unless they are 100 percent complete. Using TAMMIS,
any exceptions will be identified and tracked to make sure that the FH is
operational within required time frames. To help accomplish this, the
Commanding Officer developed a reorganization plan that will position the five
divisions (formerly referred to as departments) under one of three newly created
departments—the Operations, Systems, or Contract Administration
Departments. As part of the reorganization, FHSO personnel will no longer
work independently of one another and will have increased supervision. For
example, instead of Supply Department personnel making purchases and not
following up on them, FHSO has created several item manager positions that
will monitor all user requests within the new Supply Division. Further, FHSO
is drafting standard operating procedures that will delineate responsibilities.




                                   10
Recommendations and Management Comments
    B. We recommend that the Commanding Officer, Fleet Hospital Support
    Office:

            1. Establish management controls to ensure that Fleet Hospitals are
    not fielded with shortages. At a minimum, the management controls should
    include written standard operating procedures that:

                  a. Specify clearly who is responsible for identifying and
    resolving shortages in Fleet Hospitals and how they will perform their
    function.

                   b. Require Supply Division personnel to reconcile unfilled
    user requisitions on a periodic basis and report the status of the requisitions
    to personnel responsible for resolving shortages.

                  c. Require Fleet Hospital Support Office managers to verify
    that Theater Army Medical Management Information System shortage
    reports are accurate.

                 d. Describe how Theater Army Medical Management
    Information System will be used to manage the service life extension
    program.

          Management Comments. The Navy concurred with the
    recommendation. The FHSO established a formal SLEP production planning
    and management program to coordinate departmental and contractor activities.
    The SLEP procedures and responsibilities will be published in Fleet Hospital
    Support Office Instruction 6780.1, “Fleet Hospital Service Life Extension
    Program,” by September 30, 2000.

           2. Perform mini-service life extension programs and ship follow-on
    containers with material to satisfy shortages in Fleet Hospitals 20 and 21.

           Management Comments. The Navy concurred with the
    recommendation. The Commanding Officer, FHSO, stated that funding for
    shortages occurred in FY 2000, and orders were to be completed in
    August 2000. Assembly and packing will be completed when all material is
    received.




                                      11
                    C. Reconciliation of Unliquidated
                       Obligations
                    The FHSO did not properly manage its unliquidated obligations
                    (obligation for which there have been no payments). Although Defense
                    Finance and Accounting Service (DFAS) did not provide accurate
                    information on disbursements, FHSO can improve management of its
                    unliquidated obligations by establishing management controls requiring
                    the Financial Management Department to reconcile unliquidated
                    obligations with TAMMIS cancellation, purchase order, and receipt
                    information. By reconciling unliquidated obligation balances, FHSO can
                    reduce the risk of inaccurately portraying its financial position, and
                    possibly can free up funds by canceling invalid obligations.

    Required Reviews of Unliquidated Obligations. DoD Regulation 7000.14-R,
    “Financial Management Regulations,” volume 3, “Budget Execution−Availability and
    Use of Budgetary Resources,” December 1996, requires that DoD Components
    adequately review unliquidated obligations to support the annual certification of
    obligated balances required by each DoD Component. In a May 14, 1996,
    memorandum, the Under Secretary of Defense (Comptroller) (USD[Comptroller]) sent
    out guidance to DoD Components requiring that funds holders review the validity of
    recorded unliquidated obligations at least three times a year and provide reports to the
    USD(Comptroller) that the reviews of obligations were conducted or explain why
    unliquidated obligations cannot be confirmed.1 Funds holders have that specific
    responsibility because they initiate actions that cause obligations to be incurred and are
    in the best position to determine the accuracy and status of such transactions. To
    accomplish the reviews, funds holders need to aggressively monitor and track the
    status of their obligations. Although FHSO, as a funds holder, was not responsible for
    making most of the disbursements of its funds, FHSO should be able to obtain
    documentation showing whether goods and services for obligations have been
    received.

    Although the Office of the USD(Comptroller) has not finalized the May 14, 1996,
    guidance on tri-annual reviews of obligations into DoD Regulation 7000.14-R, it
    issued a draft version for comment that included the guidance in May 2000. Further,
    the Deputy Comptroller (Program Budget), Office of the USD(Comptroller), reiterated
    the importance of reviewing obligations in an August 17, 1999, memorandum to DoD
    Components, which cites the May 14, 1996, memorandum. The Deputy Comptroller
    also reiterated by memorandum in April 2000 the importance of the tri-annual reviews.



1
    USD(Comptroller) Memorandum, “Quarterly Reviews of Commitments and Obligations,” May 14,
    1996, requires funds holders to review unliquidated obligations of at least $50,000 for Operation and
    Maintenance Funds and other operational funds, and obligations of at least $200,000 for all other funds,
    three times each year. Obligations that do not meet those criteria should be validated at least annually
    to substantiate the reliability of year-end budgetary reporting.




                                                      12
Reliability of Unliquidated Obligations. The FHSO was not properly managing its
unliquidated obligations. According to the Standard Accounting and Reporting System
(STARS) report of February 29, 2000, the FHSO had unliquidated obligations in
FY 1999 valued at $8.8 million, of which about $4.3 million was for the purchase of
hospital material. Of the $4.3 million, we reviewed 10 unliquidated obligations
involving purchase orders of FH material valued at about $1.9 million. For 8 of the
10 unliquidated obligations, the material was received and the vendor paid in full.
One purchase order was canceled, and one was a valid unliquidated obligation
(outstanding purchase order). Only $129,530 of the $1.9 million was a valid
unliquidated obligation. The remaining $1.8 million were not valid unliquidated
obligations because DFAS had already disbursed the funds or the FHSO had canceled
the purchase order. We reviewed TAMMIS for the eight items received and found the
receipt information accurate.
In addition, the Financial Management Department did not adjust unliquidated
obligations when purchase orders were canceled or changed by the Supply
Department. During testing of purchase transactions, we judgmentally reviewed 19
purchase orders and found 7 had been canceled. However, the STARS report showed
that funds were still obligated (unliquidated) for all seven canceled purchase orders,
although some dated back to March and May 1999. The remaining 12 purchase orders
were valid. According to Financial Management Department personnel, they did not
use TAMMIS to identify canceled or changed purchase orders although it is the
approved system for management and operations of all activities at the FHSO.

Reasons for Unreliable Unliquidated Obligations. Nonreceipt of disbursing
information from the DFAS disbursing station was the primary cause of unreliable
unliquidated obligations. However, the scope of this audit focused on the need for the
FHSO to make required reviews of obligations. The absence of effective management
control procedures to fully implement the DoD requirement to review obligations
contributed to the unreliability of unliquidated obligations.

    Disbursing Information. Payments for the eight purchase orders that had been
received and paid were not shown in the DFAS STARS report for the FHSO. We
notified DFAS that the payment information was not shown in the STARS report and
learned that the DFAS operating location, San Diego, was not liquidating obligated
funds as disbursements were made. According to personnel at DFAS, San Diego,
corrective action to verify that unliquidated obligation balances are accurate for FHSO
transactions has been taken.

    FHSO Review Procedures. Although the FHSO cannot correct systemic DFAS
problems, the FHSO can improve management of its unliquidated obligations by
establishing management controls requiring the Financial Management Department
reconcile unliquidated obligations with DFAS payments and with TAMMIS
cancellation, purchase order, and receipt information. According to FHSO Financial
Management Department personnel, they had never performed a review of
unliquidated obligations. Periodically performing reconciliations will help the FHSO
identify inaccuracies with its unliquidated obligations and make adjustments as
necessary. Periodic reconciliations will reduce the risk of the FHSO inaccurately
portraying its financial position and will help identify funds available to satisfy other
requirements. For example, had the Financial Management Department reconciled

                                           13
obligations with TAMMIS and identified canceled or changed purchase orders, funds
could have been deobligated and used for other requirements, such as shortages in
FH 20 and FH 21 discussed in finding B.


        FHSO Actions. In April 2000, the FHSO began a comprehensive reconciliation
of all outstanding unliquidated obligations.

Recommendations, Management Comments, and Audit
  Response
      C. We recommend that the Commanding Officer, Fleet Hospital Support
      Office, develop management controls that require the Financial
      Management Department to reconcile unliquidated obligations in the
      Standard Accounting and Reporting System report with Defense Finance
      and Accounting Service payments and with Theater Army Medical
      Management Information System cancellation, purchase order, and receipt
      information three times a year.

      Management Comments. The Navy concurred with the recommendation. The
      FHSO completed a comprehensive reconciliation of all outstanding unliquidated
      obligations in the STARS report with DFAS and with TAMMIS cancellations,
      purchase order, and receipt information. In the future, reconciliations will be
      conducted monthly and canceled requisitions will be deobligated.
      Responsibilities and procedures are expected to be documented in FHSO
      Instruction 7301.1, “Material Obligation Validation Program,” by
      September 30, 2000.

      Audit Response. The Navy comments are fully responsive. We commend the
      Commanding Officer, FHSO, for the quick action taken to reconcile and resolve
      unliquidated obligations.




                                        14
Appendix A. Audit Process
Scope and Methodology
    We evaluated FH management at Cheatham Annex. The audit covered
    inventory management issues, the rebuild process, and management of
    unliquidated obligations. We reviewed documents and reports covering the
    period from March 10, 1997, through April 20, 2000. We did not review
    annual physical inventory reports because the contractors did not perform annual
    physical inventories. We performed limited testing of the wall-to-wall inventory
    during the audit. We did not use statistical sampling procedures for this audit.
    The items reviewed were judgmentally selected, and the results cannot be
    projected.

    Inventory Management Issues. The review of inventory management issues
    focused on inventory accountability and identification of excess material.

         Inventory Accountability. To review inventory accountability, we
    sampled inventory records to physical locations, and physical locations to
    inventory records. Additionally, we attempted to reconcile Cheatham Annex
    inventory records with records from Alameda. We limited our work in these
    areas because the new Commanding Officer, FHSO, recognized the inventory
    integrity issues, halted the rebuild process, and conducted a wall-to-wall
    inventory to correct TAMMIS balances. We also did a limited verification of
    the wall-to-wall inventory.

               Inventory Samples. We judgmentally selected 36 containers from
    the TAMMIS container report and verified that the containers were actually on
    hand at the locations recorded in TAMMIS. Based on concerns of FHSO
    personnel, we also selected 17 containers located in an outside storage area and
    searched TAMMIS to determine if the containers were properly recorded.
    Further, we had the contractor open 2 of the 17 containers and we were able to
    identify about $280,000 of medical material not recorded in TAMMIS. We
    estimated the $280,000 by obtaining the stock number from the container
    packing list and applying the dollar value for the stock number from TAMMIS.
    We did not verify the contents of the remaining 15 containers because of the
    ongoing wall-to-wall inventory.

               Reconciliation of Cheatham Annex and Alameda Inventory
    Records. We attempted to reconcile FH inventory reported on hand at
    Alameda, as of August 1997, to the inventory on hand at Cheatham Annex as of
    September 1999. The two balances could not be reconciled because the FHSO
    replaced information systems when they moved, and we could not obtain
    accurate or complete historical reports on purchase orders, issues, and receipts.




                                       15
           Limited Verification of the Wall-to-Wall Inventory. To determine
the accuracy of the wall-to-wall inventory as requested by the Commanding
Officer, we judgmentally selected 467 of 4,500 stock numbers between
February 18 and March 14, 2000, and found the inventory results reported in
TAMMIS were accurate.

            Excess Material in Inventory. To determine excess inventory, we
reviewed the September 1999 TAMMIS reports for FH rebuild requirements,
on-hand inventory balances, cross-linkages, and deleted items. We also
reviewed the Defense Reutilization and Marketing Office excess inventory
reports for FY 1998 and FY 1999. We also verified that 20 line items of
excessed inventory, valued at about $890,000, were properly accounted for by
the FHSO and recipients. Additionally, we reviewed civil engineering support
equipment documentation, April 29, 1998, supporting the transfer to the
disposal activity of 24 ambulances valued at about $900,000. We found the
24 ambulances were properly disposed of and accounted for by the recipient.

Rebuild Process. To determine FH material shortages for the FH 20 and
FH 21, we reviewed the FHPO memorandum of July 12, 1999, and stock status
reports as of February 2, 2000. We attempted to determine why the shortages
existed by reviewing TAMMIS and actual inventory balances. A total of
2,600 purchase orders valued at about $21.8 million were issued during
FY 1999. We judgmentally selected 30 purchase orders valued at about
$4.4 million from the FY 1999 TAMMIS Requisitions Report,
December 7, 1999. Of the 30 purchase orders sampled, 19 were for medical
equipment, and the remaining 11 were for services. We followed up on the
status of 19 purchase orders by comparing them to actual receipts with the
TAMMIS exception reports.

Management of Unliquidated Obligations. Because we found seven incorrect
unliquidated obligations during our review of receipts processing, we further
tested the management of unliquidated obligations. Specifically, we
judgmentally selected 10 unliquidated obligations valued at about $1.9 million of
the $8.8 million reported on the FY 1999 Active Document Listing in STARS
as of February 29, 2000.

DoD-Wide Corporate-Level Coverage. In response to the Government
Performance and Results Act, the Secretary of Defense annually establishes
DoD-wide corporate level goals, subordinate performance goals, and
performance measures. This report pertains to achievement of the following
goal and subordinate performance goal:

     FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
future by pursuing a focused modernization effort that maintains U.S. qualitative
superiority in key warfighting capabilities. Transform the force by exploiting
the Revolution in Military Affairs, and reengineer the Department to achieve a
21st century infrastructure. (00-DoD-2) Subordinate Performance Goal 2.3:
Streamline the DoD infrastructure by redesigning the Department’s support
structure and pursuing business practice reforms. (00-DoD-2.3)




                                   16
    Use of Computer-Processed Data. We relied on computer-processed data
    contained in TAMMIS. We obtained data or reports from TAMMIS to evaluate
    control over physical inventory management, FH shortages, medical asset
    dispositions, and supply operations at the FHSO. Although TAMMIS reports
    were not reliable, after the FHSO completed the wall-to-wall inventory in
    April 2000 and after it made changes to the shortage reports, we were able to
    obtain reliable data as the basis for our report.

    Audit Type, Dates, and Standards. We performed this program audit from
    October 1999 through May 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and the contractor responsible for performing the
    rebuild and warehousing functions. Further details are available upon request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of the FHSO management controls over inventory accountability,
    hospital rebuild process, and purchase orders and unliquidated obligations. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the FHSO as defined by DoD Instruction 5010.40,
    “Management Control (MC) Program Procedures,” August 28, 1996. FHSO
    management controls for inventory accountability were not adequate to ensure
    that general inventory was properly managed. Additionally, management
    controls over the hospital rebuild process did not ensure that fielded FHs
    included all key items. Finally, management controls over purchase orders and
    unliquidated obligations were not adequate to ensure timely liquidation of
    outstanding obligations. Recommendations A.1., B.1., and C., if implemented,
    will improve FHSO inventory management, hospital rebuild process, and
    management of unliquidated obligations.

    A copy of this report will be provided to the senior official responsible for
    management controls in the office of the Chief, Bureau of Medicine and
    Surgery.




                                        17
Adequacy of Management’s Self-Evaluation. FHSO officials identified
inventory accountability, purchase orders, and unliquidated obligations as
assessable units. However, FHSO officials did not identify the material
management control weaknesses identified by the audit for inventory
accountability because the FHSO evaluation covered a much broader area. No
evaluation was performed for purchase orders and unliquidated obligations
because the units were given a low vulnerability assessment. FHSO officials did
not identify the hospital rebuild process as an assessable unit and, therefore, did
not identify or report the material management control weaknesses identified by
the report.




                                    18
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General, DoD, and the Army Audit
    Agency have audited DEPMEDS. The Inspector General, DoD, issued four
    related reports and the Army Audit Agency issued one report. Unrestricted
    Inspector General, DoD, reports can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/reports.

Inspector General
    Inspector General, DoD, Report No. D-2000-048, “Year 2000 Compliance
    Status of Biomedical Devices Included in Navy Fleet Hospitals,” December 3,
    1999.

    Inspector General, DoD, Report No. 99-222, “Air Force Frankfurt Contingency
    Hospital” (U), July 23, 1999.

    Inspector General, DoD, Report No. 98-163, “Accountability and Inventory
    Levels of Air Force Medical War Reserve Material at Fort Worth, Texas,”
    June 24, 1998.

    Inspector General, DoD, Report No. 97-054, “Equipment Pre-Positioned
    Afloat,” December 20, 1996.

Department of the Army
    Army Audit Agency Report No. AA 98-99, “Sustainment Requirements for the
    Army Prepositioned Stock Program,” February 23, 1998.




                                     19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Chief, Bureau of Medicine and Surgery
Auditor General, Department of the Navy
Commanding Officer, Fleet Hospital Program Office
Commanding Officer, Fleet Hospital Support Office

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          20
Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Central Command

Other Defense Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          21
Department of the Navy Comments




                  22
23
24
25
26
27
28
29
30
Audit Team Members
   The Readiness and Logistics Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report.

     Shelton R. Young
     Michael A. Joseph
     Michael F. Yourey
     Scott J. Grady
     Suzanne M. Hutcherson
     Danny O. Hatten
     Christine Smith
     Elmer J. Smith
